<html>
<title> - [H.A.S.C. No. 111-69]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-69]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST FOR ARMY ACQUISITION, RESET AND MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                              MAY 21, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
52-848                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 21, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Army Acquisition, Reset 
  and Modernization Programs.....................................     1

Appendix:

Thursday, May 21, 2009...........................................    39
                              ----------                              

                         THURSDAY, MAY 21, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
           ARMY ACQUISITION, RESET AND MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     6

                               WITNESSES

Ahern, David G., Director, Portfolio Systems Acquisition, Office 
  of the Under Secretary of Defense, Acquisition, Technology and 
  Logistics......................................................     8
Speakes, Lt. Gen. Stephen M., USA, Deputy Chief of Staff, G-8, 
  U.S. Army......................................................    12
Thompson, Lt. Gen. N. Ross III, USA, Military Deputy to the 
  Assistant Secretary of the Army (Acquisition, Logistics and 
  Technology), and Director, Acquisition Career Management, U.S. 
  Army...........................................................    10

                                APPENDIX

Prepared Statements:

    Ahern, David G...............................................    43
    Thompson, Lt. Gen. N. Ross III...............................    60

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Hunter...................................................    85
    Mr. Kissell..................................................    85
    Mr. Marshall.................................................    85
    Mr. Wilson...................................................    85

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
           ARMY ACQUISITION, RESET AND MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                            Washington, DC, Thursday, May 21, 2009.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Aloha. Good morning, everybody. Thank you 
for being with us.
    We have some old friends here, and new friends, and Mr. 
Ahern, General Thompson, and of course General Speakes. General 
Speakes has been my mentor and chief lecturer for some time 
now, and I am pleased to see him, although I am not sure that 
he thinks I have been a good pupil, that is the only thing.
    The subcommittee meets today to receive testimony on the 
Army's acquisition and modernization budget for the fiscal year 
2010, and I want to particularly welcome then, again, Dr. David 
Ahern.
    I said ``mister'' yesterday and I should have said 
``doctor.'' You earned it; you deserve the title. Or it is not 
so?
    Mr. Ahern. No, sir. I am a graduate of the Naval Academy--
--
    Mr. Abercrombie [continuing]. Thought maybe I had missed it 
in your biography.
    Mr. Ahern. No, sir.
    Mr. Abercrombie. Okay.
    Nonetheless, you are in charge of the portfolio systems 
acquisition of the Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics (USD/AT&L). I am saying 
some of these things not because you don't know it, but because 
this is for the public record. People are seeing it and they 
may not be aware at all. This may be their first exposure.
    So again, I thank the members and I thank those of us 
that--those of you who are here for indulging me a little bit 
if I seem to go into a lot of detail that many other people 
here already know. It is for the public record and for those 
who may be observing and learning for the first time about a 
lot of these things.
    General Thompson is the military deputy to the Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology.
    I hope, by the way, General Thompson--to show you we 
actually do read testimony, the word ``friction,'' I understand 
is a Clausewitzian term, and I hope it is not going to replace 
``logistics'' as a phrase of art. Friction, to me, means 
something working against each other, and particularly when it 
comes to the transportation side and supplying, I think the 
Army actually has it down pretty well. It may be difficult--the 
logistics may be difficult, but I don't see it as friction in 
the Clausewitzian sense, okay? We will get the theory out of 
the way.
    And General Speakes was the Deputy Chief of Staff.
    And again, General, thank you for your endless patience 
with me over the years. It is appreciated.
    Although the President's budget request was finally 
delivered to Congress on May 11th, the full details on several 
major programs remain unclear, pending further analysis by the 
Army. Nonetheless, the Air and Land Forces Subcommittee markup 
for the fiscal year 2010 is just 21 days from today--3 weeks 
from today.
    I am emphasizing that to you, gentlemen, this morning, 
because this extremely tight timeline means that the witnesses 
need to provide answers to members today, and certainly within 
the next three weeks, not some point in the distant future. I 
know you are working every day on this; I am not giving you 
some kind of a task that has not already been assigned to you 
by the Chief of Staff, let alone the Secretary of Defense. I am 
sure there is a lot of double shifts being worked right now, so 
this is not meant to further burden you so much as it is to 
indicate that we are ready to receive whatever decision and 
recommendations that you have for us as soon as possible.
    To facilitate these answers, then, the subcommittee 
specifically requested that the Army witnesses bring with them 
subject matter experts on all the major programs facing changes 
in the budget so members could not hesitate to ask detailed 
questions. And so for new members that are here, I can assure 
you that General Thompson and General Speakes can state with 
authority the answers and the observations that they will give 
to you in response to your questions and/or observations.
    While the Army 2010 budget does not include significant--
does include significant changes to many programs, it is 
overall--I wish to say this at the beginning; I am saying these 
words with consideration--a solid request that will provide the 
Army with what it needs. And I want to emphasize that, because 
obviously we may have some questions and differences to be 
resolved with regard to individual items or categories within 
the budget, but I wanted to emphasize to you, Mr. Ahern, and to 
both generals here that I believe it is a solid request and I 
believe it will provide the Army with what it needs.
    The total of $41.1 billion for procurement and research and 
development demonstrates a commitment, I believe, to adequately 
fund the Army needs while also being prudent about where the 
money is allocated. Put in context, this total of $41-plus 
billion exceeds the entire budget request of the Department of 
State, Agriculture, Energy, Homeland Security, and just below 
the funding request for the Department of Veterans Affairs and 
the Department of Education.
    So the emphasis here, I think, is where it needs to be, so 
that we don't have friction with regard to maintenance and 
operations and deployment. That is what we have to try and 
avoid, and I think you are making a good faith attempt to do 
that with this budget as we have it so far.
    However, despite this large amount of funding, the Army 
remains under significant pressure to support overseas 
operations. To do so, the readiness of the most nondeploy--of 
most nondeployed units has been severely compromised. While 
equipment stocks are not the only reason many units are not 
ready for combat, it is a major reason in many cases, I think 
you will agree.
    There is also a large unknown requirement for repair of 
equipment coming out of Iraq, and I expect the same will--or, 
this will be compounded by operations in Afghanistan without 
even getting into the question of other contingencies that 
might arise. So there is an unknown requirement, then, for 
repair of equipment and logistics with regard to equipment and 
deployment of personnel, even though, in Iraq, the size of the 
U.S. force may, in fact, and probably is, in fact, going to 
decline.
    The extent of this unknown cost hangs over all of the Army 
modernization plans, in my estimation, and may be significantly 
changed as the full cost of the war in Iraq becomes clear, 
particularly if it goes in the direction I think it might. So 
we are putting this mark together in three weeks, trying to be 
fully cognizant of what I believe to be the fact that the Army 
may have cost implications that it has to deal with that are 
not anticipated, or are anticipated to the best it can, given 
the budget document and the defense bill that we have before 
us. But I am well aware that we have to try to take into 
account--how can we modernize and still take into account what 
you are going to need to handle the deployments and handle the 
equipment needs?
    With regard to specific programs, the proposed changes to 
the Future Combat System will have the most impact on the 
Army's near-term budget needs and long-term modernization 
plans. The House Armed Services Committee, under both 
Republican and Democratic leadership--and I want to pay 
particular tribute today, on the record, to former Chairman 
Curt Weldon, under whose leadership I had the honor to serve as 
ranking member. Under his leadership, there was the first 
expressed doubts about the technical feasibility, the 
affordability, and the wisdom of some of the aspects of this 
very complex and expensive program.
    Unfortunately, I believe that leadership all the way 
around, in Congress and in the Pentagon, simply waited too long 
to address the fundamental contradictions for some of its own 
plans, some of the Army's plans for the Future Combat System, 
and how these plans related to the modernization for the rest 
of the Army. That said, the Army now faces dramatic changes 
imposed on the Future Combat System by the Secretary of Defense 
that will require months of additional analysis, contract 
negotiations, and leadership reviews to straighten out, all the 
while trying to explain why the program still needs almost $3 
billion in fiscal year 2010.
    However, the decision by Secretary Gates to terminate the 
manned ground vehicle portions of the Future Combat Systems 
program, I believe, was overdue, and it is the right decision. 
I am not sure, though, that he has gone far enough.
    While many questions remain, some aspects proposed for the 
reorganization of the Future Combat System appear to be good 
ones, and I want to say what they are: the rapid phase-out of 
the lead systems integrator to manage the program. Again, this 
is not a partisan observation; this goes back to leadership 
when Republicans were in charge of Congress and in charge of 
the committee, in terms of responsibility.
    New contracts with reasonable fee structures to replace the 
current fee arrangement that featured hundreds-of-millions-of-
dollars a year in fees with very few tools for Army program 
managers to hold contractors to account. In other words, I 
believe that it is a step forward for the Army to be more in 
charge.
    Breaking up the programs into separate elements for 
vehicles, communication network, and spinouts to the current 
force so that the Army can properly manage each of these major 
efforts. I think logistically speaking, that is going to reduce 
the friction for the Army. I think that is a good managerial 
step forward.
    However, many questions--I know I have a lot of 
``howevers'' in here--many questions about the way forward with 
the Future Combat System remain, some of which I hope will be 
answered today and in the three weeks to come before the 
markup. For example, in what remains of the Future Combat 
System in the budget, there is a $415 million cost increase for 
software development costs that I am having great difficulty in 
figuring out the logic, or what it is there for, that kind of 
thing.
    And there is other examples that we needn't go into right 
now. So it appears that even without the manned vehicle, the 
Future Combat Systems program could face continued cost 
overruns in the future, and this has been predicted by the 
Government Accountability Office (GAO) and other analysts again 
and again.
    There is one critical issue regarding the Future Combat 
Systems (FCS) that I want to emphasize today: Trying to go too 
fast with immature technologies and optimistic cost estimates 
is how the Future Combat System got in trouble in the first 
place, so it is imperative, in my view, that the Army not 
repeat all these same mistakes and that Congress not repeat 
these same mistakes.
    I want to make it clear that this is a critique of the Army 
program, with regard to Future Combat System, not criticism, as 
such, because there is criticism to go around that can start 
with the Congress. The Congress has the ultimate responsibility 
and decision-making here, and the Congress did not do its job, 
in my estimation, in terms of oversight and helping the Army to 
resolve these issues in a legislative sense in the defense 
bill.
    So there is enough sins to atone for to go around. My job, 
I feel, today and in the markup to come, and the job of this 
subcommittee and the committee as a whole is to see to it that 
we exercise our oversight functions in a responsible way and 
work with you to see that the strategic interests of the Nation 
are met.
    Taking time to get the--in other words, then, taking time 
to get the requirements, the cost estimates, and the technology 
right is absolutely essential to make sure that the Army can 
proceed with a new vehicle program that has the support of 
Congress and actually succeeds. That has to be our goal--I say 
our goal; not yours or mine, but ours.
    Beyond the FCS, the 2010 budget request also includes some 
major changes, and I just want to mention them very briefly: 
the Joint Cargo Aircraft program. The subcommittee needs to 
better understand the rationale and the impact of the proposed 
changes to this important program.
    The budget request is also the first Army budget request 
since 2003 that does not include funds for Stryker vehicles. 
Members need information regarding the future of the Stryker 
program, including whether or not the Army is ready to commit 
to a fleet-wide Stryker upgrade program or programs.
    The Army's Tactical Wheeled Vehicle Fleet also faces many 
challenges, including the future of the Mine Resistant Ambush 
Protected (MRAP) vehicle in the Army fleet, modernization for 
the Army's huge inventory of Humvees, adequate resourcing for 
the Joint Light Tactical Vehicle (JLTV) program--that really 
needs some close attention--addressing critical shortfalls in 
the Guard and Reserve medium and heavy truck fleets as well as 
policy with regard to the Guard and Reserve.
    There are also significant issues that need to be addressed 
regarding the Army's fleet of helicopters and Unmanned Aerial 
Vehicles (UAVs). Recent reprogramming in the fiscal year 2009 
supplemental request by the Army to fund the upgrade of the 
Apache and the Kiowa Warrior helicopters satisfy, I believe, 
near-term requirements and address the cancellation of the 
Armed Reconnaissance Helicopter (ARH). Longer-term, however, 
there needs to be considerable analysis completed to determine 
the proper mix of helicopters and UAVs and required 
capabilities to meet warfighter needs.
    We don't have, at least in the presentation that has been 
made to us so far, an idea of where you want to be over the 
next 5 years or 10 years, other than in the most general terms, 
and we are going to need more analysis in that regard.
    Finally, members need to also fully understand the Army's 
path forward on body armor. I feel like Bill Murray in 
``Groundhog Day'' when it comes to body armor, and I feel like 
I am reading the same reports over and over again and the same 
accusations over and over again.
    Media reports continue to indicate that in Afghanistan, 
soldiers may carry loads as high as 130-to-150 pounds for a 3-
day mission. Much of this is anecdotal, I understand, but we 
have previously received testimony that personnel can wear only 
so much armor beyond which their operational effectiveness is 
inhibited, and that, in turn, increases the risk of being 
injured. And I suspect that that should be apparent. We expect 
to receive updates on immediate efforts to lighten the load on 
the soldier without sacrificing their safety.
    Again, in this area, in my Bill Murray mode, the Army 
recently implemented a new policy decision requiring all body 
armor tests to be conducted in-house at a government 
laboratory, the Army Test Center. Historically, the Army has 
contracted the Independent National Institute of Justice 
certified laboratories. Those who are certified under the 
National Institute of Justice and are independent for first 
article test and lot acceptance test, so this is a change in 
direction and we need a little bit more information in that 
regard and what the Army's intent for the long term is.
    We also need to know whether this decision could create 
delays in fielding body armor to the warfighter. And at the 
request of the subcommittee, before the testing policy decision 
was made by the Army, the Government Accountability Office was 
already observing and reviewing the most recent body armor 
tests being conducted at the Army Test Center.
    The GAO is in the process of completing their review. We 
are waiting to review their findings. I am hoping this can be 
done in short order, but if it can't be done by the time of the 
defense bill markup, I think we may have to deal with this as a 
separate issue down the line.
    In the meantime, then, I encourage the Army and the 
Department of Defense to standardize test procedures and 
protocols. That would eliminate, I think, a lot of this 
friction and contention that is taking place.
    Again, this has been a lengthy statement. I am generally 
loath to do that, but given the importance of the defense bill 
coming up, and with the change in administrations, I felt it 
was imperative that we have a crystal clear understanding of 
where we are and what we need to address ourselves to.
    So before we move, then, to our witnesses' opening remarks, 
which don't necessarily have to be in response to this at all 
at this time, I want to turn to the ranking member of the 
subcommittee and our most valued and trusted friend, Mr. Roscoe 
Bartlett, for his opening remarks.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you very much, Mr. Chairman.
    To our witnesses, thank you for being here, and thank you 
very much for your service to our country.
    In the recent series of full committee posture hearings a 
consistent theme has carried through, and I want to echo it 
here today. I feel that there has been an absence of thoughtful 
debate, discussion, and in some cases analysis, to support this 
budget request.
    The fiscal year 2010 Army top-line request is advertised as 
being a robust 2.1 percent increase over 2009. That assertion 
is misleading, given that when funding previously included in 
the supplemental is added, the Army in 2010 will be funded at 
$4 billion less than in 2009.
    Army procurement accounts, not including the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO), were 
funded at $37 billion in 2009, yet the request in 2010 totals 
just $30 billion. Army Research and Development (R&D) accounts 
were funded at $12 billion in 2009, yet the 2010 request has 
been decreased to just $10 billion.
    So basically, the Army's procurement is down; R&D is down. 
Even though the Army's overall funding is $4 billion less than 
in 2009, the Army's unfunded requirements list is only $900 
million, which is $3 billion less than last year. I hope our 
witnesses can shed additional light on these concerns.
    I have just a couple of issues I would like to highlight. 
The first issue is in regard to the Joint Cargo Aircraft.
    All of you have heard my thoughts on this over the course 
of the previous hearings. I have asked witnesses from the Army, 
the Air Force, the Guard, and the Office of the Secretary of 
Defense (OSD), what has changed? Why is this mission being 
moved out of the Army and slowly over to the Air Force when not 
four months ago we received the Quadrennial Roles and Missions 
Review Report that stated, ``The option that provided most 
value to joint force was to assign the C-27J to the Air Force 
and the Army''?
    None of them have been able to answer the question, but all 
of them stated that there has been no new study or analysis 
conducted that countered the existing plan or reduced the Joint 
Requirements Oversight Council (JROC)-approved requirement for 
78 joint cargo aircraft. I might note that that was just Army 
aircraft; the Air Force needed to add to that the aircraft that 
they would need.
    The second issue I would like to highlight is in reference 
to the Future Combat Systems program. As you know, Mr. 
Chairman, no other committee has provided as much oversight on 
this program as this subcommittee. You can go back to when Mr. 
Weldon was the chairman and find that many of the concerns that 
Secretary Gates recently announced were very similar to the 
points that this subcommittee made back in 2005.
    However, it matters not who was right or who was wrong. 
What matters is, what do we do now? How do we ensure that we 
are looking out for the future of our soldiers? We must get 
this right. The Army must be allowed to modernize.
    To our witnesses, please take this message back to the 
Pentagon. We want to support your efforts as you restructure 
the Future Combat Systems program, but you must figure out a 
way to make us part of the process.
    Along those lines, if I could make an additional point 
specifically in regard to the manned ground vehicles--I realize 
that you have your work cut out for you as you go back and look 
at requirements and move toward a new or modified program. I 
would ask that as you take a closer look at requirements that 
you include taking another look at your electrical magnetic 
pulse requirement, EMP.
    I visited Aberdeen Proving Ground a couple of months ago 
and received a classified briefing on Future Combat Systems in 
regard to electromagnetic pulse. This is not the appropriate 
venue to get into a classified discussion, but I can tell you 
that you need to change your requirements. The threat is 
several times what you have designed it to and are testing it 
to. Please take a look at this and follow up with me.
    Finally, I would like to mention a few things about body 
armor. Again, Mr. Chairman, under your leadership this 
subcommittee has provided extensive oversight on this area that 
is matched by no other committee. Body armor is the ultimate 
last line of defense when it comes to protecting our 
warfighters, and while we have made much progress, we must do 
more.
    The senior Army leadership has testified that they want to 
provide a high level of protection and reduce waste, but the 
way we currently procure body armor does not support that 
objective. We must not continue to classify body armor under 
the same category as clothing and boots. Not only does it send 
the wrong message to our soldier, but it doesn't help our 
industrial base plan for the future.
    As you know, Mr. Chairman, our subcommittee tried to make 
some changes last year, but we were unsuccessful during 
conference. I know we plan on making some changes this year, 
and I fully support such efforts.
    My last point concerns body armor as well. There have been 
some recent press reports regarding the Army's recent decision 
to conduct all first article testing and lot acceptance testing 
at a government test lab.
    As you know, Mr. Chairman, we sent a letter to the 
Secretary of the Army, and the response did not provide the 
detail we were hoping for. We also requested that the General 
Accountability Office report back to us in regard to the Army's 
efforts to conduct this testing.
    I will withhold judgment on this issue pending the final 
GAO report. However, I will say this: The first article test is 
very comprehensive, and critical test in terms of qualifying a 
product. I can understand why the Department believes that they 
need to maintain this capability as a core competency and that 
it may cost more compared to a private test lab.
    But to do so, they must properly staff their test facility 
and have an established and fully vetted set of test procedures 
and protocols that is understood by industry concerning light 
acceptance testing, which is a less rigorous sample test. I 
continue to have concern regarding the Army's change in policy 
and hope to gain more detail at today's hearing. Again, I will 
await until the final GAO report comes out, but I suspect we 
will be reengaging with the Department of the Army on this 
decision.
    Thank you for being here. I look forward to your testimony.
    And Mr. Chairman, I would ask leave to be absent for a few 
minutes to go to testify before a Judiciary subcommittee. Thank 
you, and I yield back.
    Mr. Abercrombie. Thank you, Mr. Bartlett.
    Before we go to our guests, starting with Mr. Ahern, we 
will engage in dialogue with our witnesses in reverse order 
today. Those who are the newest members will go first, and in 
order of those who were here at the time the gavel came down, 
and then who subsequently arrived.
    Mr. Ahern, thank you for your service. Please proceed. And 
if you have a longer statement it will be submitted to the 
record, without objection. Same for both generals. And any 
remarks at this time would be welcome.

   STATEMENT OF DAVID G. AHERN, DIRECTOR, PORTFOLIO SYSTEMS 
    ACQUISITION, OFFICE OF THE UNDER SECRETARY OF DEFENSE, 
             ACQUISITION, TECHNOLOGY AND LOGISTICS

    Mr. Ahern. Thank you, Chairman Abercrombie.
    Distinguished members of the subcommittee, thank you for 
the opportunity to appear before you to discuss Army 
modernization from the perspective of the Office of the 
Secretary of Defense. I will be brief in order to move quickly 
to the panel's questions.
    When Secretary Gates introduced the Department's fiscal 
year 2010 budget, he clearly articulated that one of his 
principal objectives was to rebalance the Department's programs 
to institutionalize and enhance our capabilities to fight the 
wars we are in today and the scenarios we are most likely to 
face in the years ahead while at the same time providing a 
hedge against other risks and contingencies.
    The Secretary's decisions regarding the Future Combat 
System focused the effort to deliver military useful capability 
developed in FCS to all of the Army's combat brigades while 
reevaluating the requirements, technologies, and approaches, 
then re-launching the Army Vehicle Modernization program.
    You asked that I address the Department's support for both 
the Army's Aerial Common Sensor and the Navy's EP-X Aircraft 
programs. Both the EP-X and the Aerial Common Sensor (ACS) 
capabilities are important to maintain current warfighting 
capability and to improve multi-intelligence based 
Intelligence, Surveillance, and Reconnaissance (ISR) solutions 
for survivability and mission effectiveness.
    At this time, the Department is reviewing service plans for 
material development decisions and their associated analyses of 
alternatives. Our goal in the pursuit of both capabilities is 
to identify affordable program solutions that field multi end 
capabilities as soon as possible.
    You also asked about lessons learned from the Comanche and 
the Armed Reconnaissance Helicopter acquisition programs. While 
both programs share the common objective to replace aging armed 
reconnaissance aircraft inventories, the technical goals of the 
two programs were nearly opposite.
    Comanche incorporated cutting edge technology for improved 
performance. ARH objective was to field new aircraft that 
matched existing capabilities without significant new 
technology.
    The primary lesson from Comanche relates to assuring 
technology is mature prior to engineering development. For ARH, 
schedule is a critical goal that the program was unable to 
achieve. We have already incorporated those lessons in the new 
Department of Defense (DOD) instruction.
    The department continues to modernize the Tactical Wheeled 
Vehicle Fleet of some 300,000 vehicles. The sheer magnitude of 
the fleet dictates that modernization must be approached 
incrementally with attention on affordable and achievable 
solutions.
    In the Joint Light Tactical Vehicle, or JLTV, acquisition, 
the Army and Marine Corps selected multiple contractors for 
competitive prototyping to reduce risk, ensure designs are 
produceable and properly costed. The JLTV will give us 
increases in reliability, maintain ability performance and 
commonality at a competitive price.
    As you know, we have fielded thousands of Mine Resistant 
Ambush Protected vehicles to operational forces. The MRAPs are 
outstanding vehicles for specific missions, and we will ensure 
that this capability remains part of the force structure.
    In the area of body armor, USD AT&L recognizes Defense 
Advanced Research Projects Agency (DARPA), Army, Navy, and 
Marine Corps' science and technology efforts aimed at reducing 
body armor weight while maintaining or enhancing the protection 
they provide. These efforts include work on ballistic fiber 
technology, ceramics and composites, advanced materials, 
modular designs, and biomechanics as well as longer-term 
technologies.
    In the small arms area, a Joint Assessment Team (JAT) was 
established to assess the Department's approach to satisfying 
requirements. The JAT's preliminary findings include insights 
into the importance of training, the challenges in defining 
measurable, effects-based requirements, and the availability of 
commercial products that could meet the Department's needs. We 
will share the final results with the committee after the JAT 
completes its work and USD AT&L approves the report.
    The final topic you asked me to address is the Persistent 
Threat Detection System (PTDS). The PTDS Tethered Aerostat 
Program is a capability procured and supported specifically for 
the theater of operations.
    There are eight PTDS quick-reaction capability systems 
currently deployed of a requirement for 18 systems. We are 
awaiting the approval of supplemental funding for up to seven 
additional systems.
    We are grateful for the continued support of Congress, 
which has been critical to ensuring our soldiers are the best 
trained and equipped Army in the world. Thank you for this 
opportunity to testify on the Department's plans to continue to 
equip them for today's wars and tomorrow's challenges.
    [The prepared statement of Mr. Ahern can be found in the 
Appendix on page 43.]
    Mr. Abercrombie. Thank you, Mr. Ahern. I appreciate your 
comments on the values of competition. I think I will extract 
those remarks and send them over to the Secretary of Defense 
about the--I think you were inches from a clean getaway.
    General Thompson.

   STATEMENT OF LT. GEN. N. ROSS THOMPSON III, USA, MILITARY 
  DEPUTY TO THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, 
              LOGISTICS AND TECHNOLOGY), U.S. ARMY

    General Thompson. Chairman Abercrombie, distinguished 
members of the subcommittee, thank you for this opportunity to 
discuss the fiscal year 2010 President's budget request and the 
Army's acquisition, reset, and modernization programs. With 
this budget request the Army----
    Mr. Abercrombie. I think your mike may not be on or you 
need to pull it a bit closer, General.
    General Thompson. With this budget request, the Army's 
highest priority remains the protection of our warfighters in 
an operational environment that is increasingly unpredictable 
and dangerous. Force protection has taken on an even greater 
importance as we shift major operations in Iraq to Afghanistan.
    We are grateful to members of this committee for your 
guidance and your steadfast support. We continue to meet the 
equipping demands of our soldiers in ongoing overseas 
contingency operations and in other operations worldwide 
because of the resources and the guidance provided by this 
committee and the Congress. We constantly strive to be good 
stewards of those resources.
    The Army's comprehensive modernization program is the key 
to ensuring that our soldiers maintain a decisive advantage 
over a diverse array of potential adversaries while improving 
their survivability. In every aspect of Army modernization, we 
leverage lessons learned from soldiers in the current fight to 
speed fielding of enhanced capabilities to the force while we 
concurrently develop capabilities soldiers will need both today 
and tomorrow.
    Our plans include transition to a modernization strategy 
focused on building a versatile mix of networked brigade combat 
teams and enablers that can leverage mobility, protection, 
information, and precision intelligence and fires to conduct 
effective full spectrum operations. We also plan to incorporate 
the valuable technology and network advances we have drawn from 
the Future Combat Systems program as well as the key 
technologies already in use in Iraq and Afghanistan.
    On a couple of individual programs, the Army and the 
Department of Defense remain committed to the requirement for a 
manned scout helicopter capability and the need to deliver this 
capability to our soldiers in a responsible and timely manner. 
We are also committed to working with the Secretary of Defense 
and the Office of the Secretary of Defense and Congress to 
field the new ground combat vehicle as soon as possible.
    In other areas of future commitments, we are evaluating 
proposals for the next evolution of the MRAP, the MRAP All 
Terrain Vehicle (ATV). We are planning for production of the 
Joint Light Tactical Vehicle, competition for a new carbine, 
and continued development of the Joint Tactical Radio System, 
the Warfigher Information Network Tactical, Aerial Common 
Sensor, and other systems, to ensure that our soldiers maintain 
a decisive advantage over potential adversaries.
    Mr. Chairman and members of the subcommittee, your deep and 
abiding commitment to our men and women in uniform is widely 
recognized throughout our ranks. We thank you for your 
continued support of the men and women in uniform, for the 
United States Army, and their families. And this concludes my 
opening remarks.
    [The joint prepared statement of General Thompson and 
General Speakes can be found in the Appendix on page 60.]
    Mr. Abercrombie. Thank you, General Thompson.
    General Speakes, I realize that the statement of General 
Thompson is meant to be a joint statement. However, out of 
respect for your valued input to this subcommittee over the 
years and to the committee as a whole, taking into account 
fully my shortcomings as a pupil with regard to your 
instruction over the years, if you would like to make a 
statement, even informally, we would be pleased to hear it.

STATEMENT OF LT. GEN. STEPHEN M. SPEAKES, USA, DEPUTY CHIEF OF 
                     STAFF, G-8, U.S. ARMY

    General Speakes. Chairman Abercrombie, sir, it is an honor 
to speak to you, and I speak to you as somebody who is humbly 
grateful for all that you have done for us for the years that I 
have been associated with this committee, which is now four 
years.
    And Ranking Member Bartlett and members of the committee, 
it is an honor to be here today to be afforded the chance to 
talk about our Army, an Army that right now is at its peak in 
terms of soldiers deployed--as we straddle commitments in both 
Iraq and Afghanistan, as we execute a responsible drawdown, and 
as we shift and now adopt the main effort of this great Nation 
as we focus on Afghanistan. So it is an Army that is under a 
heavier load than ever, and one that merits and receives your 
support as never before.
    We would like to address some specific areas where the Army 
shifted focus and reflection on the lessons learned of this 
last period of conflict. It is going to be reflected in both 
the fiscal year 2010 budget and our plans to the future.
    First of all, it is an Army that recognizes that we must 
provide and continue to provide the best equipment to soldiers 
in conflict. Much of what General Thompson has already spoken 
about addresses our recognition that soldiers in conflict today 
in Afghanistan will be equipped differently than those in Iraq 
in very important but very subtle ways.
    Such examples as you have already cited is lightening the 
soldiers' load. A soldier who operating in Iraq essentially 
operated in close proximity to a up-armored Humvee or an MRAP, 
or some other mounted platform.
    Today's soldier that is operating in Afghanistan is 
operating at very high altitudes in a long-range dismounted 
mode of operation that puts much greater priority on us to put 
the equipping strategy in a very important new way, and a new 
light.
    We also recognize that as we begin to execute the withdraw 
of equipment out of Iraq, that we must have a strategy that 
brings that equipment back here and resets it appropriately so 
that we put strategic depth back into this Nation's Army.
    We would like to draw your attention to the point that 
getting that equipment back is essential to our future 
readiness. While it is not the panacea that will fix our 
readiness issues, it is important that we recognize that there 
are vital capabilities that right now are a part of equipment 
that is in Iraq, is a part of our theater-provided equipment--
over 30,000 weapons--over 30,000 trucks.
    Those are examples of capabilities that must be brought 
back so that we can do something that is very important to 
ensure the readiness of the Army in the future. There are moves 
afoot to put equipment on a transfer basis into other forces, 
military, specifically the Iraqi army and police.
    We would simply ask that if that happens that the Army be 
compensated for that because we certainly must have the 
equipment back in order to ensure the future readiness of the 
Army. So what may make important sense from a national strategy 
also must reflect the readiness of the Army as a core value for 
all of us.
    And then finally, what I would also like to do is ensure 
that we have a shared vision of the road ahead. The guidance 
that we received from the Secretary of Defense as we announced 
the fiscal year 2010 budget is a very, very important signal to 
us about learning lessons from this conflict and thinking very 
carefully about our modernization.
    And we think your comments about how we ensure that we are 
getting value for the future dollars spent and that we have a 
strategy that is nested with yours is absolutely vital to all 
of us. So we are doing that.
    We have also made important adjustments to our equipping 
strategy, one that reflects the reality now of an Army that is 
in motion, that won't be equipped on a static basis with 
equipment sitting in a unit for the lifetime of that particular 
piece of equipment, but instead, now, an Army that equips units 
on a mission-specific focus recognizing the relative place in 
the cyclic readiness profile, much like the United States Navy 
has employed for many years.
    So we have adopted that, and we think that what we are 
going to be able to do is show much higher utilization for our 
equipment, improved readiness, and a better ability to focus 
the best equipment where it needs to be to support soldiers who 
are headed into harm's way.
    So these are but a few of the important initiatives that we 
welcome today as an opportunity to engage in dialogue and to 
explain what we are trying to do in pursuit of the Secretary of 
Defense's strategy. We thank you for the opportunity to testify 
today.
    [The joint prepared statement of General Speakes and 
General Thompson can be found in the Appendix on page 60.]
    Mr. Abercrombie. Thank you very much, General Speakes. 
Thank you for your kind remarks, not least of which regarded 
me, and to the subcommittee. Appreciate it.
    We will start with Mr. Kissell, to be followed by Mr. 
Wilson.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, Generals. My district in North Carolina is 
immediately adjacent to Fort Bragg, and I had the privilege 
Monday of spending all day with Special Forces and General 
Mulholland, and learning more about the tremendous work that 
these men and women do to help us.
    Mr. Ahern, I think the difficulty in asking the question 
right now is, if we have a lot of specifics about what is 
taking place as we transition towards Afghanistan, potentially 
away from Iraq, and to try to balance the specifics of what is 
taking place now versus the general aspect of modernization. 
And as we talked about yesterday in our subcommittee hearing 
and the chairman's aspect of what wishes can be, and we know 
the limitations of what wishes can offer to us.
    I would like to ask you about the ground vehicles. As I was 
reading through the information available to us, it seems like 
we are looking at multipurpose vehicles--light, heavy, medium--
but yet the ground vehicle for the Future Combat Systems is 
out.
    So where are we going, in terms of ground vehicles? And 
more importantly to me is, how are we going to know what 
successes we are having in this transition, because it seems 
like on a lot of issues, that we are at a transition point that 
if the new doesn't happen on time, we are in trouble.
    So if you could give me some ideas on that, I would 
appreciate it.
    Mr. Ahern. Yes, sir, and I would like to collaborate with 
my Army compatriots on answering your question. I think what I 
would say is that as we are moving forward on the Manned Ground 
Vehicle (MGV), on the ground vehicles, that aspect of the 
Future Combat System. The first step is going to be to look at 
whether or not we have that right mix currently of heavy 
Stryker, of vehicles in support of the heavy, the Stryker, and 
the infantry brigades. And depending upon that, how we 
accomplish those missions in a variety of environments. And we 
need to assess what we need going forward in that combination 
of forces--the task forces that we fight in.
    That, anyway, is the way I look at it. And that is what the 
Army is going to be looking at this summer and this fall, is an 
assessment of the requirements for the right mix of vehicles in 
the brigades and identify what gaps there are and what 
capabilities are needed toward that reinstitution of the manned 
ground vehicle development, if that answers your question, 
while at the same time we are well underway on the Joint Light 
Tactical Vehicle, which will, as it is fielded to the brigades, 
provide the capability in that space.
    Does that begin to answer your question, sir?
    Mr. Kissell. Yes, sir. And I think one of the important 
things there is you said that we are going to be assessing this 
and have answers in the fall, and I think one of the important 
things is, we have got to know what those answers are so that 
we can help you determine, you know, what is the future of this 
modernization?
    And another question, and you can get back to me on this, 
that we have had ongoing discussions on the ISR and this 
procurement request in here for C-12s, but yet there were some 
C-12 Angel Fires in Iraq that were being dismantled.
    And so just wondering where we might stand in that process 
of looking at those to see what application they may have in 
Afghanistan to help our troops over there, because we do know, 
from previous hearings, that there are a lot of concerns about 
ISR capacity being equal to the surge and our troops being 
protected.
    Mr. Ahern. Yes, sir. Well, one of the leading edge of the 
Aerial Combat System is, in fact, six, if I recall correctly, 
of the Liberty C-12s to be procured, and I will get back to you 
on where they are going, sir, but that is a leading edge of the 
program and I believe it is in the fiscal year 2010 request.
    Mr. Kissell. And be sure and look at--we do have some from 
Iraq that were being dismantled, and you are requesting new 
ones when there were others available. That was a great concern 
to a lot of people on this committee.
    Mr. Ahern. Yes, sir.
    Mr. Kissell. Thank you.
    Mr. Ahern. I will take that question.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Abercrombie. Thank you, Mr. Kissell.
    I should have reminded everybody, we are on the 5-minute 
clock, and that worked out just right. No, no, you are right on 
the--as they say in Hawaii, right on the Kupopo. Don't worry 
about it.
    And I know Mr. Wilson will do it, too.
    Mr. Wilson. Yes. Thank you, Mr. Chairman----
    Mr. Abercrombie. He is going to truncate his introduction 
and get right to his question.
    Mr. Wilson. I sure am.
    I want to thank all of you for your protecting our 
warfighters. I particularly appreciate it as a member of the 
Armed Services Committee, a 31-year veteran of the Army 
National Guard, son of a veteran, but particularly, I have 
three sons serving in the military, so I have a keen interest 
in what you are doing.
    And specifically, General Thompson, competing for the next 
contract for the M4, what is the status of the competition? 
When do you anticipate issuing a solicitation? Do you plan to 
make an award to one company or will the contract be divided in 
multiple awards to different companies? And how much has been 
budgeted for the M4?
    General Thompson. Sir, I will take your question into three 
parts. We now, after many years, have the government purchase 
rights to the technical data package for the existing M4 
Carbine, and we are in the process of putting the solicitation 
package out to compete that M4 Carbine tech data package, and I 
expect that request for proposal to be out within the next four 
to six weeks.
    In addition to that, we have also looked at the broader 
requirement for small arms, in particular the carbine, and the 
Army is about ready to update that requirement and pass that 
requirement, which has been jointly developed, to the Joint 
Requirement Oversight Council to go into that broader 
requirements process.
    So we will complete the existing carbine design at the same 
time we are updating the requirement for a potential future 
carbine or small arms capability that will go into the Joint 
Requirements Oversight Council process.
    I will look up the answer to the question on how much is in 
the budget. I don't have that at the tip of my fingers, but I 
have got it somewhere in my material here.
    [The information referred to can be found in the Appendix 
on page 85.]
    And to the question of, will we go with one or more----
    Mr. Wilson. Companies----
    General Thompson [continuing]. Companies as we do the 
award, I don't know the exact acquisition strategy, but my 
recollection is that it is just with one winner as a result of 
a competition. If that is incorrect I will come back and 
correct that for the record.
    Mr. Wilson. Thank you very much. And additionally, I 
understand that the Army issues a solicitation for an MRAP that 
is the responsibility of the original equipment manufacturer to 
select the door for the vehicle. This results in the MRAP 
vehicles with different doors. Would it be wise for the Army to 
specify the safety and survivability of the door?
    General Thompson. For all of the equipment manufacturers 
that have produced MRAPs to date, they have designed the doors 
particular to that vehicle variant. We have continued to 
improve the doors from a couple of standpoints.
    We identify in the testing that the doors don't stay shut 
properly when they are subject to blasts; we have made those 
adjustments on all the vehicle variants. We have also made 
adjustments to the individual designs to make sure that the 
soldiers inside once that vehicle is hit are able to get that 
door open and get out of the vehicle.
    We have not standardized the design on doors. We did not 
think that was something that we needed to do because we have 
optimized the design with each individual manufacturer. But we 
have continued to take the lessons learned from theater and 
adjust the door designs for the two key categories I talked 
about--making sure they stay shut when they need to stay shut 
and making sure they are easily able to be opened when the 
soldiers inside need to get out of the vehicles, especially 
after they have been hit.
    Mr. Wilson. And I was honored to be with Congresswoman 
Tsongas to see some of the new MRAPs, and the doors--and you 
have really identified some of the concerns I have. But as we 
consider specifications for the doors, would it be possible 
that the power door system have a sensing device to prevent 
injuries to the operator while closing the door?
    When a blast disables the vehicle, the power door system 
must assist quick egress, relying on a self-contained separate 
power system. The power door system should also assist in 
egress on an uphill side when a blast or accident rolls the 
vehicle to its side. Are these specifications that--and you 
really hit on some of them a few minutes ago--a few seconds 
ago.
    General Thompson. Sir, those are all things that, as we 
look at the MRAP All Terrain Vehicle with five companies that 
are in the process of source selection and testing right now, 
and then, as I said before, is looking at the existing fielded 
MRAPs--primarily the ones that have been fielded to Iraq--
making adjustments to those door designs.
    I will take your question back in detail and get back with 
the Joint Program Office, which is, you know, led by the 
Department of the Navy, but certainly large participant of the 
Department of the Army, and make sure that we are addressing 
those particular issues that you addressed.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Wilson. Thank you very much, and I appreciate your 
answers.
    Mr. Abercrombie. Thank you, Mr. Wilson.
    Mr. Marshall, to be followed by Mr. Miller.
    You are next after Mr. Marshall, Jeff.
    Mr. Marshall. Thank you, Mr. Chairman.
    The ATV MRAPs--when do you think we are going to see them 
in theater?
    General Thompson. Sir, right now we just are in the second 
phase of the----
    Mr. Marshall. When are your----
    General Thompson [continuing]. Source selection evaluation 
process. We will make a source selection decision at the end of 
June, as we continue the evaluation. And the expectation is the 
first of those will----
    Mr. Abercrombie. Can you pull the mike a touch closer, 
please, General?
    General Thompson. The first of those vehicles will be 
fielded in the fall.
    Mr. Marshall. During the fall of this year?
    General Thompson. Yes, sir.
    Mr. Marshall. Been to Afghanistan a bunch of times, and you 
are out on some of the special forces installations, and what 
you will see is MRAPs parked and gathering dust. They just 
won't use them. You give them to them, they won't use them, and 
for good reason. They roll over.
    Your unfunded requirements makes reference to--well, pardon 
me. In response to an inquiry by the ranking member, General 
Casey gave us a list of unfunded requirements, and included in 
that list is Army test sets, diagnostic equipment, and test 
infrastructure. What does that refer to? Do you know offhand?
    General Speakes. Sir, I would like to just give you a quick 
explanation of what we tried to do with the unfunded 
requirements list. I would like to take the specifics of that--
--
    Mr. Marshall [continuing]. I would rather not take too much 
time on this. I would like a specific response to that inquiry, 
so maybe you could do that for the record. And the force 
provider--could you get some detail there, you know, what that 
is, why you want that?
    [The information referred to can be found in the Appendix 
on page 85.]
    Joint Cargo Aircraft--Mr. Bartlett has already noted that 
in the Quadrennial Roles and Mission Report of January 2009 the 
department indicated that it is appropriate to have JCA, C-27 
in both the Army and the Air Force. The Institute for Defense 
Analyses came out with a report done at our request on March 
13th, and in that report it seems to be--the Institute for 
Defense Analyses (IDA) seems to be saying that for low-
intensity conflicts like those that we are engaged in in 
Afghanistan, for example, that the best airlift mix includes as 
much, if I recall correctly, as 98. That is most effective for 
the least cost--98 C-27s.
    How do we get--let us say it is Army that really needs the 
C-27s and Army is convinced that this is a very useful platform 
to meet operational needs in, say, Afghanistan. And yet, the 
program is assigned to the Air Force. How do we get more C-27s?
    Does Army pay for it? It is an Army need. The Air Force 
actually is going to own it, buy it, operate it, service the 
Army. Is it in the Army budget or is it in the Air Force budget 
as we move forward?
    General Speakes. Sir, the intent of the guidance that we 
received as we announced the fiscal year 2010 budget decisions 
is that this program moves to the Air Force, and----
    Mr. Marshall. We have got that part of it.
    General Speakes [continuing]. We are in the process now of 
an orderly transition of funding, program administration, and 
future support all to transfer to the Air Force to include the 
training of the aviators, everything else associated with it. 
The concept, then, would be that from our perspective as a user 
on the battlefield, we will look to the Air Force to provide 
that support.
    And the specific work that is going on right now with the 
vice chairman with the two service vices is to ensure that we 
have a plan to enable the Army to achieve the kind of quick 
support for the last tactical mile that has been the 
shortcoming that was addressed in the requirement----
    Mr. Marshall. Do you offhand know whether or not it will be 
in the Army budget or the Air Force budget?
    General Speakes. It will be in the Air Force budget, sir.
    Mr. Marshall. So the Air Force will have to ask, in its 
budget, for resources needed by the Army?
    General Speakes. Sir, in the same context that all fixed-
wing assets, essentially, that provide that kind of support are 
an Air Force asset, so this is a concept now of who is 
providing support to the tactical commander on the battlefield. 
We would be the customer; the Air Force would be the sole 
source provider.
    Mr. Marshall. I think this is a terrific opportunity for 
the Air Force. I have no problem with the idea of the Air Force 
managing the acquisition, modernization, maintenance. Got a 
very different concept than the Army does with regard to those 
things, and I think in the long run a better one as far as 
saving taxpayer dollars is concerned.
    I am just kind of worried that--we, none of us, want to see 
a repeat of the Caribou history. We want this to work.
    I think it is a terrific opportunity for jointness, et 
cetera, but where Caribou was concerned, what got in the way 
was money as much as anything else. It is, ``Oh, gosh, is this 
coming--you know, is this trip coming out of my budget? Is this 
plane coming out of my budget? I don't really need it that 
much. You know, I am more worried about some other things.'' So 
I am hoping that that coordination works out well.
    I yield back. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you.
    Mr. Miller, to be followed by Mr. Johnson.
    Mr. Miller. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here today and your testimony. 
I would like to talk a little bit about body armor, if we can.
    Chairman, I think you were right on the mark. We keep 
hearing it over, and over, and over again.
    I was reading, I think, Mr. Ahern, in your remarks, and 
correct me if I am interpreting this incorrectly, but it says 
that the Joint Clothing and Textile Governance board, which was 
mandated by DOD, dated August 20 of 2008, and then I look down 
and I see that--and the director is supposed to chair--of 
Defense Logistics Agency (DLA)--is supposed to chair that 
board.
    And then I look down, in the next paragraph it says DLA is 
in the process of formalizing this board to include drafting a 
charter, identifying membership, and creating a governance 
structure. Are we talking about a year-long process to set this 
board up? Is that what happens?
    Mr. Ahern. Yes, sir. I think that the DLA involvement--the 
board that I am describing is a sustainment board. I will 
defer, again, to General Thompson for the specifics. I think it 
is a looking forward effort; it is not affecting the fielding, 
the development, the fielding, the procurement of the body 
armor currently for the Army, but it is looking forward toward 
the sustainment of the body armor capability in the years to 
come.
    General Thompson. Sir, if I could just add to that, just a 
minute, the services develop requirements for equipment and 
develop requirements for body armor. There is a lot of work 
going on right now to develop more joint requirements on body 
armor.
    The services also do the development and the procurement of 
the new equipment; DLA does the sustainment. So this board that 
is being set up, as I understand it, is to get better 
collaboration on how do we do the sustainment of the fielded 
items--clothing and equipment--body armor being one of those 
items.
    Mr. Miller. All right. Since we are talking about fielding 
the equipment, can you tell me where we are now with fielding 
body armor and the testing? What changes have taken place in 
the testing process of the body armor?
    My understanding is that maybe some of the requirements 
have changed. Tests have been done. Body armor that passed and 
was acquired in the past now doesn't meet specs. Can you 
elaborate on that?
    General Thompson. There has been a lot of questions raised 
about body armor testing, so let me try to answer most of them 
and then take some specifics. As a result of a series of audits 
and Inspector General (I.G.) reports, we pulled the body armor 
testing back in with a policy statement that said we were 
primarily going to do the testing in-house at government 
facilities, because we do have the government facilities that 
we need to fully leverage.
    So that doesn't mean we are going to do all of the testing 
inside the government facilities, but the intent right now--and 
we are balancing this between what we do in house and what we 
do with the commercial industry--is to do the first article 
testing, which, as has been pointed out in the opening 
statements, the more comprehensive testing in order to qualify 
a design to go in production. We have an industry day set up 
with the commercial testing laboratories in June to be able to 
get their input to see what is the right balance between 
government testing and commercial testing for the long haul.
    We are in the process right now of increasing the capacity 
of the Army Test and Evaluation Command, in particular to the 
facilities at Aberdeen, in order to do that testing. The 
director of operational tests and evaluation has got oversight 
responsibility for the testing of body armor, and they are in 
the process of standardizing the test protocols for the 
Department of Defense, which have been different between the 
services and with United States Special Operations Command 
(USSOCOM), and the expectation there is they will publish a 
Department of Defense instruction, which codifies the standard 
test protocols, by the end of this summer, probably in 
September.
    Mr. Miller. Has this move--and I think there was a National 
Institute of Justice or something that was mentioned earlier; I 
wasn't able to write down. Was that one of the testing groups 
in the past, or did I misinterpret their comment?
    General Thompson. Sir, the National Institute of Justice 
standard is a certification standard, like an International 
Organization for Standardization (ISO). The commercial labs 
have chosen to have the National Institute of Justice come in 
and certify their processes and procedures, which is an 
indication of their focus on quality. And so it is good for us 
to use those commercial labs that have the National Institute 
of Justice standard.
    Mr. Miller. Has pulling--I apologize, my time is expired. 
Just a very quick question. Has pulling the testing in house 
caused any of the suppliers to no longer meet the requirements?
    General Thompson. This is a very complicated area, but it 
is possible to qualify a design with first article testing, and 
then the individual lots that are produced to not pass testing, 
because we test not just the qualification of the design, we 
also do testing every lot that an individual body armor 
manufacturer produces to make sure that they are still adhering 
to the standards.
    So it is possible to have a first article test pass, pass a 
number of lot acceptance tests, and then fail one, and then 
pass a subsequent one. So it really depends on the 
manufacturing process, the materials, et cetera, but that is 
part of a quality control check.
    Mr. Miller. Thank you.
    And I have some follow-up questions, Mr. Chairman, I would 
like----
    Mr. Abercrombie. Sure.
    Mr. Miller [continuing]. To submit for the record.
    Thank you very much.
    Mr. Abercrombie. Mr. Miller will send you those, and if you 
can reply to him and to us we would be grateful.
    Mr. Marshall has a very brief follow up on Mr. Miller's 
inquiry.
    Mr. Marshall. When you are doing your follow-up testing, 
your lot testing, and you discover that there is a fault with a 
particular lot, do you have a regime where, if it happens once 
or twice or three times, that manufacturer is out, so that the 
manufacturers are encouraged not to try and----
    General Thompson. Yes, sir. In the contract specifications 
for body armor now, if you fail two lots in a row you have to 
go back and requalify that design, or if you fail three lots 
out of 100 you have to go back and requalify the design. So you 
have to go back and do the comprehensive first article testing 
again, and that is what is in the contract specifications for 
body armor today.
    So you can't fail more than two lots in a row and then pass 
one and have us accept that body armor and field it. And 
whenever a lot is failed, we do not accept that lot of 
equipment. It is rejected, as you would expect it to be.
    Mr. Abercrombie. Thank you.
    Mr. Johnson, to be followed by Mr. Coffman.
    Mr. Johnson. Thank you, Mr. Chairman, for hosting this 
hearing, or holding this hearing.
    And thank you, gentlemen, for coming. It is, indeed, our 
honor to be in your presence, and I personally want to thank 
you for your service to the Nation.
    As I understand it, the average soldier deployed over a 3-
day mission is carrying up to 150 pounds of gear, and of 
course, you are seeking to lighten that load. However, two to 
three pounds lighter for the body armor is what we have now. 
And is there any reason why we should not be able to get that 
down substantially more, and--while at the same time preserving 
the coverage and even expanding the coverage of the body armor?
    General Thompson. Sir, I will take that question. We are 
always looking to improve the capability and lighten the load 
on the soldier. An example today is that we have fielded to a 
battalion at Fort Carson that is getting ready to deploy to 
Afghanistan a series of lighter equipment, and we will evaluate 
that battalion and its performance when it goes to Afghanistan 
to see how the soldiers perform with that lighter load.
    The program executive officer soldier has done a number of 
significant things over the last five and six years to lighten 
the load not just in body armor, but in the optics that are on 
the weapons and the clothing that the soldiers wear. That is a 
constant focus for us to be able to lighten the load on the 
soldier in every category of equipment that the individual 
soldier carries.
    We just finished, this week, an evaluation--back to body 
armor--on plate carriers. We evaluated six different categories 
of plate carriers that take weight off of the soldier, in 
particular looking towards the operational environment in 
Afghanistan where it is more of a dismounted operation, and so 
we have evaluated the capability of that plate carrier.
    So it is the same plate--it is the same Enhanced Small Arms 
Protective Insert (ESAPI) plate that we field today in a plate 
carrier that doesn't cover as much, but that is part of the 
risk tradeoff. And what we have done is, we have characterized 
what that coverage is and we have given that commander the 
ability to use that plate carrier with the full-up ceramic 
plates that we field to all the soldiers to give them that 
option when they are going on a mission that requires them to 
reduce some of the weight that the soldiers carry.
    Mr. Johnson. Right. Thank you.
    And with respect to our men and women serving in the 
Reserves and the National Guard, and also their families, your 
budget request shrinks the amount of money for the National 
Guard, as I understand it, and for the Naval Reserve 
components. And, you know, you already talked about--well, you 
haven't talked about this during the hearing, and I would like 
you to talk about it--equipment shortfalls that are projected 
to occur despite the budget request.
    And so I would like to know, why is it that we are 
decreasing that part of your budget as opposed to increasing 
it?
    General Speakes. Sir, I would like to take the question. 
Since I have been in Army G-8 over four years now, properly 
equipping the Army National Guard and the Army Reserve--the two 
elements of our reserve component--has been a critical Army 
priority. To put it in perspective, in fiscal year 2001 the 
Army National Guard was given $1 billion to equip the force. 
Now, over the course of the period from 2002 through 2013, the 
average has been $3.9 billion per year. So what you see is 
almost by a factor of four that we have made a sustained, long-
term commitment to ensure that both the Army National Guard and 
the Army Reserve are properly equipped.
    That strategy has involved several key elements. First, we 
had to address the fact that we had to put them on the same 
basis for equipping, so they now have the same structure, the 
same Table of Organization and Equipment (TO&E), as their 
active component counterparts. So we have one standard to 
measure equipping levels at.
    The second thing we had to do was recognize that as we 
filled the organizations, we wanted to give them modernized 
equipment and not castoff equipment. You will recollect that in 
decades past what we did is equip the active force and then we 
took the used equipment from the active force and moved it to 
the reserve component. Those days are past. Now the Army 
National Guard and the Army Reserve get equipment that is new, 
right off the production line, the same way as their active 
component brethren.
    So what we have been able to do is do two things: fill 
holes, but secondly, raise the level of modernization. So we 
will continue this effort now through the current planning 
focus, which in our case is out through fiscal year 2015, and 
what we are going to be able to do is approach the same levels 
of equipment on hand and, probably as importantly, the same 
levels of modernization, which is really important to soldiers 
so they don't have something that is 10 or 20 years old, in 
terms of technology; they have the same thing as their active 
component brethren.
    The intent being, then, so that when they are deployed they 
have the same compatible equipment that provides high 
survivability, and secondly, we also recognize the importance 
of homeland defense. We are managing, now, separately 
visibility on what we call the homeland defense items, which 
are essentially about 250 items of equipment that have 
particular utility when we are going homeland defense functions 
in support, particularly, of our state governors.
    Those items are also continuing to improve over time. So 
this is a long-term commitment. We are going to sustain this 
commitment through the period of planning that we have been 
accountable for now, which is out through 2015, in draft terms. 
And at this point, I can offer you our sincere commitment that 
you have a sea change, in terms of the actual equipping levels 
of our reserve component now, and that that will continue for 
the foreseeable future.
    Mr. Johnson. Thank you very much, sir.
    Mr. Abercrombie. Thank you.
    Mr. Coffman.
    Mr. Coffman. Oh, I am sorry. There has been some concern, 
and certainly I share the concern, that this Nation has been 
engaged in counterinsurgency and nation-building since post-9/
11 and that we have gutted our conventional capability at the 
expense of counterinsurgency and nation-building. And I wonder 
if you can speak to that in this budget?
    And also, I wondered if you could also speak to, in the 
budget, the status of armor and the status of field artillery? 
Please comment.
    General Speakes. Sir, I think you correctly identify a very 
important issue for all of us in the Army, and it is an issue 
of balance. We certainly understand the Secretary of Defense's 
guidance, and his guidance, essentially, is this: that we have 
to have a formation that is relevant to the lessons learned 
from the current conflict, but also let us prepare for what we 
regard as the likelihood and kind of potential conflict that we 
face in the future.
    So what we use is the term ``full spectrum capability.'' 
What it means, then, is both our formations in terms of their 
design, the soldiers and leaders who man them, and the 
equipment that we use for those formations has got to be able 
to function across the spectrum of conflict.
    And as you well know, the artillery piece that we are using 
today with an Excalibur Precision Round can be used right now 
to take out a terrorist room that we would find in a building 
in Baghdad, or it can be used in the event that we need the 
mass precision fires against some kind of a major operation 
that would involve mass formation. So we are committed right 
now to ensuring that the rest of our formation, which 
specifically would be the heavy formation that has heavy 
brigades as its core, is modernized along with the other 
elements of our formation to give us a ability to move across 
the spectrum.
    So specifically, in the case of artillery, we have the 
Proton Exchange Membrane (PEM) (fuel cell demonstration) 
program, which is the concept by which we continue to apply 
state-of-the-art capabilities to our Howitzers. We are also 
continuing the same kind of modernization to our Abrams and our 
Bradley formations, continuing a vigorous research and 
development program so that we could continue to apply 
capabilities to those vehicles as we see the lessons learned at 
war tell us we need to move to improvements.
    Let me defer to General Thompson for additional----
    General Thompson. Sir, the only thing I would really add to 
that is that the big change for us in this budget is the fact 
that we are going to look at the requirements and begin again, 
anew, on the ground combat vehicle program. So there is a need 
for us to modernize the ground combat vehicles. That is the 
replacements for the tanks, and the Bradleys, and the 113s that 
are out there in the force today.
    Until we do that, you would expect us to look at those 
opportunities to upgrade and modernize the existing fleet that 
is out there, and we do that. And there is a balance. There is 
a balance in how much you invest in today's systems versus 
trying to go to modernize for the future, and it is no 
different than replacing your old car one day, or it is no 
different than the other services replacing Joint Strike 
Fighter aircraft with the existing aircraft that are in the 
inventory today.
    And so you can't just stop. You have got to always be 
looking to the future. And there does become a point where it 
doesn't make operational sense, or fiscal sense, to continue to 
modernize an older set of equipment because it has outlived its 
useful life.
    Mr. Coffman. Well, thank you.
    For the record, I want to express my concern about 
maintaining our conventional warfighting capability, because I 
think it is very easy for the Department of Defense and the 
Congress to say, ``You know, these--nation-building and 
counterinsurgency is really the future threat. We don't have to 
focus on conventional threats.''
    And it is much cheaper, quite frankly, from the standpoint 
of modernization or looking at weapons platforms, to focus on 
counterinsurgency and nation-building than it is to focus on 
conventional warfighting capabilities.
    Last question is, can you tell me about the status of the 
Humvee? I know that initially, earlier on in Iraq they were, 
you know, sticking extra metal on those things for up-armored 
Humvees, and the transmission, I know, wouldn't support--you 
know, they were wearing those vehicles out prematurely. Can you 
tell me what the status of the Humvees are right now?
    General Thompson. Sir, we have sequentially upgraded the 
protection capability on the Humvees through a series of 
fragmentation kits, and right now we are on our sixth iteration 
of fragmentation kits to increase the protection levels. And so 
we have done that to the Humvee fleet.
    You know, we see, from a requirements perspective, that we 
won't have any thin-skinned vehicles in the future, that we 
know we need to be able to put the right level of armor 
protection on the entire Humvee fleet that goes in harm's way, 
and that is part of the tactical wheeled vehicle strategy. As 
we look to modernize the light tactical vehicle fleet, which 
the Humvee is part of, that is what the Joint Light Tactical 
Vehicle Program is about.
    And again, back to the question of balance, it is what is 
the right level of investment to continue to sustain the 
roughly 140,000 Humvees that we have got in the inventory, many 
of them up-armored today as we go to the future and begin to 
produce the Joint Light Tactical Vehicle, which, as Mr. Ahern 
pointed out earlier, is a competitively-awarded development 
program that is one day going to be the replacement for the 
Humvee.
    Mr. Coffman. Mr. Chairman, if I could----
    Is it the Army's objective that there be no more thin-
skinned Humvees, that all Humvees are of the same up-armored 
capability?
    General Thompson. There will continue to be, you know, 
thin-skinned Humvees in the inventory. The ones that are in the 
inventory will primarily be used in a training area, but they 
are not the ones that will be used in the operational 
environment that we see today in Iraq and Afghanistan.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Abercrombie. Thank you very much.
    Ms. Tsongas, to be followed by Mr. Hunter.
    Ms. Tsongas. Thank you for your testimony and for your 
service in very difficult times. You have heard a lot of 
questions about body armor today, and I, too, share that 
concern, both with the information we have received on the 
numbers of orthopedic injuries, some attributable to the weight 
of the armor, the numbers of those who are not deployable. And 
in testimony here, we also heard a young soldier testify of the 
temptation to take it off when in the field because it is so 
heavy.
    So given all that we have heard here, my question is, 
wouldn't it make sense to put together a--rather than dealing 
with this in a piece-by-piece fashion, put together a task 
force, much as we did around the MRAPs, to sort of deal with 
this in a holistic way, a concerted effort around research and 
development and then fielding whatever body armor makes the 
most sense? And I welcome your thoughts from all of you.
    General Thompson. Ma'am, we have, today, in the Program 
Executive Office Soldier, which does all of the soldier 
systems, a task force on soldier protection that is looking at 
the holistic items for soldier protection. The joint work that 
is going on in both the requirements and the testing area 
around body armor is essentially doing that without calling it 
a task force.
    And so I think we are doing that from a requirements and 
from a testing perspective when I addressed the testing 
standardization that the director of operational tests and 
evaluation is leading us through right now.
    We have a number of other forums--the Army-Marine Corps 
Board at multiple rank levels, all the way up to the Vice Chief 
of Staff and the Assistant Commandant of the Marine Corps--look 
at those opportunities between the two primary ground forces to 
look at areas of standardization on all soldier protection 
equipment.
    One of the things that I have talked about with a number of 
the staffers is, we do think that there is a need to have, in 
the base program, not in the supplemental, a dedicated research 
and development line for body armor and soldier protection. 
That money has been in the supplemental funding for the last 
couple of years, and we recognize that need, and that is 
something we need to work with the Congress on in both the 2010 
and 2011 budget, and then putting the proper amount of money in 
there so that we have a steady state level of investment to 
continually improve the body armor for the soldiers.
    Mr. Ahern. Yes, ma'am. I would agree with everything 
General Thompson said. And as we were preparing for this 
hearing, the issue of the sustaining R&D came up, and that is 
something that I would like to say we are considering going 
forward.
    Ms. Tsongas. I would say that is the great shortfall, and 
even as you sort of deal with this in a piecemeal fashion, it 
seems to me we need a more concerted effort around that, so 
thank you for your testimony, and I yield back.
    Mr. Abercrombie. Thank you.
    Mr. Hunter, followed by Ms. Fallin.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service.
    Mr. Ahern, good to see you again, sir.
    And first question is about brownout technology. There is 
nothing in the budget at all for any brownout technology for 
Black Hawks or any other rotary wing aircraft. Just wanted to 
get a----
    The Black Hawk pilots that I have talked to have a really 
hard time. Their gunners have a really hard time. You know, a 
lot of Black Hawks bouncing off the ground as they try to land, 
in Afghanistan especially. So why wouldn't there be money in 
here even for R&D for Black Hawk brownout technology?
    General Thompson. Sir, I don't have a specific answer to 
that question. I do know, from a collaboration standpoint, that 
we do a lot of joint work with the Air Force on brownout 
technology. But I guess I would have to take that one for the 
record and get back with you on specifically what is in the 
budget. It may not be explicitly called out, but I know we do 
research and development in that area; I just don't know what 
line it is in.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Hunter. Do they have anything right now on Black Hawks 
that--any kind of debris in the air?
    General Thompson. Yes. The information that they just 
handed me that the UH-60 Mike upgrade testing that is underway 
right now has both cockpit and stabilization technology being 
evaluated.
    Mr. Hunter. And that is brownout stuff?
    General Thompson. It deals with the brownout challenge.
    Mr. Hunter. Does it use radar to do it, or does it use----
    General Thompson. Sir, I don't know.
    Mr. Hunter. Okay.
    General Thompson. I don't know the technical details.
    Mr. Hunter. Okay.
    That is all I had. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you.
    Ms. Fallin.
    We have three votes--15 and two 5--so we have some time, 
and we will come back. If you can stay, I am sorry. It will 
probably be roughly half an hour. Probably less than that--20 
minutes or so. But we have time now.
    Ms. Fallin. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to our Nation. I 
have a question about the National Guard, and it is indicated 
that 31 percent of the Guard units have their family medium 
tactical vehicles requirement on hand. And in my state in 
Oklahoma, our National Guard tells me they have 40 percent of 
their required vehicles and 20 percent of their trailers on 
hand.
    And I am just a little concerned about the readiness 
implications of not supplying the Guard units with the 
equipment that they need for both deployment and even the 
ability to effectively respond to emergencies in our home 
state. So my question is, what is the plan to help with the 
inventory--equipment inventory--that our Guard units need and 
in our individual states, and are there any changes coming down 
that will help them have a better operation role?
    General Speakes. Ma'am, let me start of by explaining that 
we are measuring, right now, two items that are a concern to 
everybody. First is overall Guard equipping levels. The second 
is where we are on the homeland defense items that you are, for 
example, focusing.
    And as a part of that, what we are focused on specifically 
is addressing critical shortfalls in modernized tactical 
wheeled vehicles with a focus on light and medium trucks, 
because those are the ones that are a critical shortfall right 
now. Over the course of the next several years, what we will be 
able to do is raise our items of homeland defense and aggregate 
to over 80 percent, to about 82 percent on hand as we look at 
our strategy between now and fiscal year 2015.
    This is vital because what we are going to be able to do is 
ensure that we have the right amount of equipment on hand in a 
state to address their particular capabilities associated with 
the units they have. And then through the formation of regional 
compact, which is a part of the director of the Army National 
Guard's strategy, to be able to max capabilities in the event 
that we have a particular need in the state.
    Let me get back to you with the specifics of what the plan 
is for Oklahoma and the Guard equipping within that state.
    Ms. Fallin. I would like to know, also, the timeframe we 
are looking at. Are we looking at two, three years, five 
years--I mean, I hope it is as quick as possible.
    General Speakes. Yes, sir. Yes, ma'am. In this case the 
issue, or the focus is, now to 2015 is where we have a specific 
plan with an investment strategy that is designed, for example, 
to take the ancient 2\1/2\ ton truck, which has been with the 
Army and the Army National Guard in disproportionate levels for 
the last 30 years, and we will have it out of the inventory 
completely by fiscal year 2011.
    So this is the strategy that puts enormous amounts of 
capability in the hands of soldiers and units in the Army 
National Guard here in the next several years. Essentially, the 
investments that were funded by the Congress two years ago in 
supplemental funding are now coming as a tidal wave of 
capability that is beginning to make a wholesale change in 
terms of Guard equipping.
    Ms. Fallin. Okay.
    And I have one other question, Mr. Chairman, if I can.
    This question is related----
    Mr. Abercrombie. Two minutes.
    Ms. Fallin. Okay. Thank you.
    We had a hearing yesterday--a readiness hearing--and I had 
the chance to ask General Chiarelli about the Army artillery's 
capacity considering the cancellation of the FCS manned ground 
vehicle system, and specifically the Non-Line of Sight (NLOS) 
cannon. And the general testified that the Army is committed to 
using the gains that have been made through the technology 
though the manned ground vehicle program into the new combat 
system.
    And I appreciate that they are trying to use that 
technology, but in your estimation, how much of the development 
that has already been done in this program will be salvageable, 
because we have spent a lot of money on this, and specifically, 
will there be any new technologies required for the new ground 
combat vehicles?
    General Thompson. Ma'am, I will take that question. We just 
finished, last week, the systems of systems preliminary design 
review on the FCS program. That was the culmination of the work 
that has been done in the development of the FCS capabilities, 
which includes the manned ground vehicle, and in particular, 
the cannon capabilities, over the last five years.
    That was a very successful meeting. It demonstrated that 
this program has made significant progress in the technology. 
All of the key technologies in the program--all 44 
technologies--are at the right technology readiness level.
    And as we go forward, here, with the Future Combat Systems 
program, we will harvest the investment that we have made to 
the extent that we can, and use that technology as we go 
forward and update the requirements in the new Ground Combat 
Vehicle program, which I can't imagine not including a new 
Howitzer, because there is a need for precision fires, all-
weather, line-of-sight, beyond-line-of-sight capability, which 
is what a cannon is.
    And so the smart business thing for us to do is to make 
sure that the $15 billion that has been spent on FCS to date is 
fully leveraged as we go forward. And that is clearly something 
that we know we have to do, and we are in the process of doing 
that. And it will take us the next three or four months to be 
able to do that with all of the contractors that we have got 
working on this program.
    Ms. Fallin. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you.
    Ms. Fallin. I appreciate your commitment on that.
    Mr. Abercrombie. We will go to Mr. Bartlett, and then I 
think it will be about 20 minutes. It will be before noon, but 
we do want to get on the record with some of these things, so I 
regret I have to ask you to stay. But we are very appreciative 
of your patience.
    Mr. Bartlett. Thank you very much.
    And noting the trust that we have, I will not be able to 
return, and I have implicit trust in my colleague that he will 
not lead this committee astray in my absence.
    I want to use the few moments we have to use the Joint 
Cargo Aircraft as an example of the consternation and confusion 
that we have here as a result of the fact that we were not 
included in any of the discussions that led up to the 
submission of the budget.
    Several years ago, the Army determined that in the low-
intensity conflict kind of a war that we were in now that they 
needed a new cargo aircraft. That was comparative, by the way, 
by the Institute for Defense Analyses, which just recently 
released a study looking at the movement of cargo by C-5s, C-
17s, C-130s, and the Joint Cargo Aircraft, and they concluded 
that in the kind of a conflict that we are involved in now, 
that as a matter of fact we needed between 90 and 100 Joint 
Cargo Aircraft.
    This was initially an Army program, and since the Air Force 
was involved in these same conflicts and would logically need a 
similar kind of aircraft, the DOD decided that the Air Force 
ought to be a partner in the procurement with the Army. The Air 
Force very reluctantly became a partner; they were kind of, as 
some might say, dragged kicking and screaming into this 
relationship.
    So here we are now, after the initial Army study, which 
indicated that the Army needed 78 of these aircraft. Institute 
for Defense Analyses said it was really in the upper nineties 
that was needed. And here we are now with a budget that says 
that the program is going to the Air Force, which didn't want 
to be a part of the program in the beginning, and that we now 
only need 38 aircraft.
    We have asked three or four set of witnesses that have come 
to us before, was there any study that indicated that the need 
had, in fact, dropped from the 90-some indicated by IDA or the 
78 that was the confirmed--the JROC confirmed that this was the 
need for the Army. By the way, the Air Force need was never 
added to that 78, so the total number would have gone up. 
Perhaps that is the 90-odd that was indicated by IDA.
    So here we are with a budget that says that the program is 
going to move from the Army to the Air Force, that the need is 
only 38 aircraft, and just recently, just less than 4 months 
ago, the Quadrennial Roles and Missions Review Report says--and 
this comes from the same organization that now presents us with 
this budget--that the option that provided most value to joint 
force was to assign the Joint Cargo Aircraft, the C-27J, to the 
Air Force and the Army.
    So I hope that you can understand our consternation and our 
confusion, because we were not a part of any of the discussions 
that led to this. Indeed, I think that many in the building 
were not involved--in the Pentagon were not involved in this, 
because every panel that has come to us before says that we are 
going to buy at least 38 of these, that this is a discussion 
matter within the military, that probably the initial number we 
got was not very well vetted.
    Mr. Chairman, I won't ask for a comment to that because I 
know it is late and we need to go to our votes, but thank you 
very much for holding this hearing.
    And thank you all very much for coming, for your testimony, 
for your service to our country.
    Mr. Abercrombie. Yes. We are going to recess now, and then 
reconvene as soon as possible.
    But perhaps during that time you can reconnoiter with one 
another and come back with an answer whether Mr. Bartlett is 
here or not. Let us start with your response to Mr. Bartlett 
when we reconvene, and then we will probably conclude the 
hearing relatively quickly after that, depending on the 
answers.
    [Recess.]
    Mr. Abercrombie. Thank you for your patience. I regret we 
had an unanticipated privileged resolution offered on the 
floor, and it took up the better part of half an hour for that, 
in addition to the other votes. That was the reason; we weren't 
being desultory or anything, or casual in trying to get back.
    And again, I express my thanks to you all.
    We will start again. When we left I had indicated that if 
it was possible to have some response for Mr. Bartlett----
    Mr. Ahern, perhaps you could take it, or anybody else, just 
for purposes of dealing with that. I don't have the question 
precisely in front of me, but it concerns his observations 
about the Joint Cargo Aircraft and the rationale both for the 
transfer to exclusive jurisdiction, I think is probably the 
right phrase, to the Air Force, and the question of changing 
the numbers that would be sought given the context that had 
been established about strategic necessity.
    Mr. Ahern. Yes, sir--excuse me. Yes, sir. And this came up, 
of course, at the hearing yesterday, as you certainly recall. 
And I did look at it a little bit more yesterday afternoon and 
this morning, and in regards to the budget, what that reflects 
is 38 JCA or 38 C-27s to recapitalize the 38 Sherpa and 
recognition of the capacity of a C-130 fleet would be 
sufficient until the department has time--which would be done 
in the Quadrennial Defense Review (QDR)--to do a full analysis 
of the intratheater lift requirements.
    But in regard to the QDR Roles and Missions that 
Representative Bartlett--Ranking Member Bartlett mentioned 
yesterday and again today, there is an additional thought in 
there that I wanted to mention, sir, and that additional 
thought really has to do with recognizing the lessons learned 
from the ongoing operations in theater, that there could be 
areas for improvement, and by changing--looking at policy, 
looking at doctrine, looking at con ops, that there might be an 
improvement to intratheater airlift.
    And so, again, in conjunction with that QDR as well as a 
transition of the responsibility from the Army to the Air Force 
and the planning that they are doing on that, there is an 
opportunity to improve effectiveness, joint synergy, and 
minimize a duplication of effort, were the two thoughts that I 
wanted to say. One, addressing the budget for this year, and 
one, the going forward, the opportunity recognized in the Roles 
and Missions, that there are opportunities for improvement.
    Mr. Abercrombie. Thank you.
    Anyone else? It is not necessary. Okay. Thank you.
    Mr. Ahern, I want to move to a Future Combat System, and 
some little bit more general inquiry. What specific FCS--or, if 
you can tell me at this stage, I would like to know what 
specific FCS contracts or subcontracts are going to be 
terminated as the Army carries out Secretary Gates' 
instructions and when might that occur? That is to say, either 
the decision about it, or if the decisions have been made or 
are presently contemplated, what is the timeframe?
    We are asking the question because it helps us determine 
what we are going to try and do with regard to the 
recommendations to the full committee.
    Mr. Ahern. Yes, sir. The major contract--and I will 
certainly defer to General Thompson to amplify it--is the FCS 
contract, and I believe the way forward--and I expect the Army 
is working on it hard now--is in restructuring in that 
contract, where certain elements of the contract will be 
restructured, certain elements of it will be terminated.
    I cannot give you a time scale for that, but what I believe 
the direction was after the systems of systems Preliminary 
Design Review (PDR) was completed would be the time that the 
Army will begin to address the restructuring of the contract 
and the termination. And as General Thompson said earlier 
today, that systems of systems preliminary design review was 
completed, I think, in this month, recently.
    Mr. Abercrombie. Yes. Could you address, perhaps more 
specific, say, below the system of systems----
    Mr. Ahern. Yes, sir.
    Mr. Abercrombie [continuing]. Idea, then what contract or 
subcontracts are you looking at at the moment?
    General Thompson. Sir, as we go forward the first step is--
there was two trigger events that needed to happen for us to 
begin the work forward on the contract. One was the completion 
of the systems of systems preliminary design review, which I 
mentioned happened last week, and so we will gather from that 
the technology advances that have been done in the program to 
date.
    The second trigger point is the official guidance to the 
program that comes from the new defense acquisition executive, 
Dr. Carter, in the Acquisition Decision Memorandum (ADM), which 
is in the final stages of being put together right now with 
staffing comments coming from OSD and the Army. And I would 
expect that within a matter of days, for that to be done. And 
so that is the official guidance on where we go forward with 
the program.
    We will then look at--the large contract that the Army has 
got is with Boeing, who has got subordinate contracts with, I 
believe the number is 22, second-level contractors. We will 
restructure that major contract, and it will take us between 
now until the end of the summer to be able to do that because 
there are so many second and third order effects with that 
major restructure of the contract.
    Part of that will be to--once the ADM is signed and 
consistent with the guidance that comes in the Defense 
Acquisition Executive, will be to halt the work on the manned 
ground vehicle portion of that, and then work to harvest the 
technology out of that. And then we will restructure the 
contract to redefine the relationship with Boeing, and then we 
will subsequently redefine the relationship with their 
subordinate contractors, in particular, General Dynamics and 
BAE, who have got the subordinate contracts on the manned 
ground vehicle. There is going to be a re-discussion and a 
restructure of that contract between those two and Boeing.
    Mr. Abercrombie. So you would be modifying the fee 
structure in the course of those discussions?
    General Thompson. Yes, sir. And I have had conversations 
with the senior executives in Boeing and SAIC who co-lead that 
effort, and they know fully it is our intent to renegotiate 
that fee structure and are expecting to do that with us.
    Mr. Abercrombie. Okay. What is the relationship, then, of 
the Army Ground Combat Vehicle program as it is now re-
evolving, if you will, in relation to the DOD acquisition 
policy, this new acquisition policy that you mentioned in a bit 
more general terms of immediate needs and et cetera? Because 
inevitably, then, I would think that would, as you just 
indicated, probably involve--going to involve multiple 
contracts to develop prototype vehicles.
    So what I want to know is, are you doing this--do you have 
a clear idea--does the Army have a clear idea of what the Army 
Ground Combat Vehicle program will look like in the context of 
the emerging acquisition policy, or is the acquisition policy 
too--still at too vague a stage for you to do that with 
clarity?
    See, you understand the reason why I am asking the 
question? You are being asked to do a very specific thing here 
pretty quickly, and I am not entirely sure that the acquisition 
policy of the DOD is as clear as your new mission.
    Does that get you in trouble commenting on that? It is not 
meant to be a--no, it is not. It is not meant to be a critique 
of your bosses or anything. I am trying to reflect on what we 
are going to--I am trying to get an answer on this, if I can, 
in the next--if not today, in the next two weeks, because I am 
sure you would agree, this is a key element in trying to figure 
out what we are going to recommend.
    General Thompson. Yes, sir. And believe me, I understand 
your question. And so, if the Acquisition Decision Memorandum 
is signed within the next few days, as we would expect, then we 
will be able to come back over and talk to you individually or 
to the staffers--Mr. Bush or whoever you want us to talk to--to 
explain the details.
    But the path forward on the requirements side is to 
reevaluate and to look with the Training and Doctrine Command 
and with full participation with OSD to relook at the 
requirement for the ground combat vehicles, and the direction 
that we are going to follow is to make sure that we have 
captured all the lessons learned from the war effort----
    Mr. Abercrombie. That is fine with me. You will not have to 
go into any detail, as such. I certainly don't require anything 
like that. But what I will need to know is, what is the cost of 
that? Because a lot of--you know, or what--not just in dollar 
terms, but how do you plan for that? How can we set the 
foundation dollar-wise for our in that so we can fit it in to 
all the other demands that are being made?
    General Thompson. Yes, sir. And subsequently----
    Mr. Abercrombie. In other words, we want to fund you 
correctly.
    General Thompson. Yes, sir. And we will be able--it is in 
the budget right now on what we think that needs in fiscal year 
2010 to be able to go forward, and as we look at the 
acquisition approach--the best competitive acquisition approach 
on the ground combat vehicle--we will come back and lay that 
out as well. We won't know the specifics of that acquisition 
approach until the fall, after we renegotiate the restructure 
contract with Boeing.
    What we do know is that the large major defense acquisition 
program that was heretofore known as FCS will probably devolve 
into three major programs----
    Mr. Abercrombie. Yes.
    General Thompson [continuing]. One to ground combat 
vehicles, one a major defense acquisition program that talks 
about the spinouts and the systems that are in those spinouts, 
and the third major defense acquisition program will be the 
network and the software, and then the subordinate program 
elements that go with that. So you will see the one large----
    Mr. Abercrombie. Got it.
    General Thompson [continuing]. Devolve into three.
    Mr. Abercrombie. Yes. And, you know, on paper that looks 
fine to me, and I think I said that in my opening remarks. I 
understand that.
    But it does raise a logistical question--not a friction 
question, but a logistical question. If you are going to be 
restructuring the, if you will, the master contract to 
accomplish this trifurcation that you have annunciated there, 
how are you going to keep the spinout one activities on 
schedule? Or is that part of the negotiation--I presume it is 
part of the negotiations, because I am sure you don't want to 
slip on that if you can avoid it.
    General Thompson. We don't want to avoid--we don't want to 
have a slip in the schedule if we can avoid it, but----
    Mr. Abercrombie. On the spinout?
    General Thompson. On the spinouts. We think we have put the 
appropriate amount of dollars in the 2010 budget to do that, 
but I will be perfectly honest here as I have been perfectly 
honest inside the Defense Department: It is going to be very, 
very difficult for us to keep to the schedule for the spinouts, 
which we had intended to field the first one, the first 
brigade, in fiscal year 2011, because of the massive nature of 
the work to restructure this large contract.
    Mr. Abercrombie. Okay. And if that happens then that 
happens. I mean, I meant it in my remarks, and I think you 
could hear it from some--in the remarks of some of the other 
members: It is better to have a realistic understanding of what 
that is than to try and jam something into a calendar number 
because it would make us all feel better if we thought that was 
going to happen.
    You don't have to try and make me feel good. I just want to 
feel confident.
    General Thompson. Yes, sir. And my basic approach is, I 
always go to the people that have to execute the work and ask 
them, ``What is a realistic expectation for you to be able to 
get this done?''
    Mr. Abercrombie. Okay.
    General Thompson. My assessment right now, you know, it 
could be in fiscal year 2011, as we planned, but if it is it is 
going to be very, very late in fiscal year 2011. But my 
realistic expectation is it is probably going to slip a little 
bit.
    Mr. Abercrombie. Okay. In fact, I wouldn't even use the 
word ``slip.'' It is going to be changed, that is all.
    I mean, ``slip'' has at least some implication that things 
have been messed up or, you know, that kind of thing, and that 
is not--I don't have that attitude toward it at all. I just 
think we are getting more realistic about what we can do, 
either both in time and money, then that is helpful to 
everybody, it seems to me. Okay.
    Well, do you have any idea, then--maybe Mr. Ahern has 
this--what the termination cost would be to cancel the manned 
ground vehicle aspects of the program? I am just thinking about 
the termination now. Are there some ballpark numbers for that?
    Mr. Ahern. Excuse me, no, sir. I don't have any ballpark 
numbers for that at all, not at this time. Maybe General 
Thompson----
    Mr. Abercrombie. There wasn't some understanding of what 
that might be should that occur? I mean, that is always 
implied. It is not like somebody can come in and say, ``Oh, I 
am shocked. You know, there is gambling upstairs.''
    Somebody can't come in and say, ``Oh, I am shocked. We are 
having to restructure the fee here,'' or if something gets 
cancelled we have to have a termination for--you must have a 
formula there.
    General Thompson. Sir, we do. We have a government estimate 
right now on what that termination liability might be.
    Mr. Abercrombie. Has that been shared with us?
    General Thompson. No, it hasn't. The specific number will 
be as a result of----
    Mr. Abercrombie. You can do that in the staff level.
    General Thompson. At the staff level, but I can say that 
the termination liability on this major restructure is going to 
be in the hundreds-of-millions of dollars.
    Mr. Abercrombie. I understand that. The main thing to be 
understood here in turn is, we are trying--we have got to work 
together on this.
    General Thompson. Sir.
    Mr. Abercrombie. This bill has to be a cooperative and 
collaborative endeavor that is going to advance the interests 
of the Nation, and the Army in particular.
    So I think you folks, for those--maybe there is some here 
who are new to this--those of you who have known me for a long 
time, I always thought the Army was on the short side, 
particularly because we never resolved the procurement and the 
research and development side versus maintenance and operation 
and deployment costs. We never dealt forthrightly with the 
question of--the acquisition of capital assets, a capital 
budget and an operating budget.
    And what has happened now is, the warnings that have been 
out there for a long time that the procurement side of things 
was going to swallow everything, and not just undermine, but I 
think almost eviscerate the capacity to have a sensible 
operational and deployment maintenance and management side of 
things--operational side, so things be funded correctly.
    So I understand what is going to happen with this. But it 
has got to be an incentive to us to get an acquisition policy 
that takes into account getting a capital budget operation of 
some kind--a capital budget structure, I should say, of some 
kind. Maybe the new acquisition bill we just passed and sent to 
the President can help bring that about.
    But we do need to know that cost. Because I have got to be 
able to figure that, and I know I am going to get asked right 
away, ``Well, how much is it going to cost to terminate this,'' 
because that immediately impacts everything else that we are 
dealing with. So if you can come up with either a guesstimate 
or a good faith figure in the next 2\1/2\ weeks, I would be 
grateful.
    Now, if you go to the termination cost estimate for the 
entire program or anything associated and ancillary to the 
manned ground vehicle aspect, is it likely, then, that the 
vehicle portion is less than that amount? The estimate that we 
have right now is around $1 billion. From the budget materials 
we have so far and our quick analysis of it, we think that it 
is going to be in the neighborhood of $1 billion all together, 
and I am presuming, then that the vehicle portion would be less 
than that, or would it be a major portion of it?
    General Thompson. The vehicle portion would be the major 
portion of it, Congressman Abercrombie.
    Mr. Abercrombie. Okay. Well, you see where I am going. I 
just need to have a clear idea so that I can tell my colleagues 
and the chairman what is likely here.
    General Thompson. We believe that in the 2010 budget we 
calculated in what we think our--what would be the appropriate 
termination liability cost, but again, the specifics will be 
the actual discussion with the contractors. But we think we 
have got it right, and we will get the breakout between what is 
ground combat vehicles and the rest of the FCS----
    Mr. Abercrombie. Once we have that then everything else can 
follow, in terms of where you want to get to. We need to get 
that off the table so that we have--then the path is clear as 
to where we want to go.
    Finally, then, you have mentioned as recently as just a 
comment or two ago, and I hope you heard when I made my opening 
remarks, talking about the network software and hardware 
element and the $415 million increase. I extrapolated out of it 
something--the National Security Agency information assurance 
requirements, and I am not sure what that means.
    Am I correct that the $415 million is related to the 
``National Security Agency information assurance 
requirements?'' Are you familiar with what I am speaking about?
    General Thompson. Yes, sir, I am. I don't know at the tip 
of my fingertips here whether all of that increase in the 
software cost is related to information assurance requirements, 
but that is certainly a portion of it, because----
    Mr. Abercrombie. What are those requirements? I am not 
familiar with any, then. I thought I was paying close 
attention.
    General Thompson. It is the protection requirements for the 
software to make sure that they are not--the software is not 
compromised and the computer network----
    Mr. Abercrombie. Why are you having to deal with National 
Security Agency requirements? Is that the rule?
    General Thompson. Yes, sir, it is. For the Defense 
Department, the National Security Agency (NSA) sets the 
requirements for how to protect the networks not just in the 
Army but across the Defense Department.
    Mr. Abercrombie. But those networks don't exist right now.
    General Thompson. As we develop the future--there is the 
network today, and as we develop the increments of capability 
for the future networks, we have got to comply with the 
requirements to make sure those networks are protected 
against----
    Mr. Abercrombie. Why would they be coming up this year? Why 
wouldn't that have been built into the requests that were 
around the network before?
    General Thompson. They were in the previous request, 
Congressman. I just don't know how they were----
    Mr. Abercrombie. Were they not differentiated, do you know, 
General Speakes?
    General Speakes. Sir, I do not know.
    Mr. Abercrombie. Okay.
    Mr. Ahern.
    Mr. Ahern. No, sir. I do not know, but I do recognize 
exactly what General Thompson is saying. As we develop the new 
networks there are--I can't think of the right word; it is not 
certification--but there is testing for, as he said, 
information assurance for the networks that NSA provides that 
oversight. So I think we could get back to you.
    Mr. Abercrombie. Okay. That is helpful----
    General Thompson. Congressman, what I would----
    Mr. Abercrombie. That is helpful. I mean, you understand 
where--I have got--the communication networks I am skeptical 
about, again time and--it is not that I am trying to argue that 
you shouldn't do it. But this is my tenth term. I have been 
hearing about this even before the Future Combat System, about 
the network and communications and interoperability, and et 
cetera, for so long, and then that has never appeared, as such.
    And so when I see something like this, I mean, you know, 
that is a considerable sum of money. It is almost half a 
billion dollars. And I am not quite sure what it is connected 
to.
    And when I am looking at trying to assist you with where 
you want to go now and the various dollar figures that are 
going to be required, naturally I am going to look into, can we 
reallocate funds that we really don't need right now into 
things that you do need right now to accomplish what you--the 
direction you are going.
    General Thompson. And so what we will do, Congressman, in 
the next couple of weeks, we will come up and see the staff and 
show them what is the subordinate elements of the----
    Mr. Abercrombie. Okay.
    General Thompson [continuing]. Costs that are in the 
budget----
    Mr. Abercrombie. Fair enough. And can you be prepared, 
then, to take a look at this whole network communication 
projection and see what--again, let us be realistic about what 
we are doing and not doing.
    Thank you.
    I want to conclude--is there anything you care to add? Any 
thoughts that you have as a result of everything we have done 
so far?
    General Thompson. Sir, I have got just a couple of quick 
things on some of----
    Mr. Abercrombie. That is fine.
    General Thompson [continuing]. To the members that are no 
long here.
    Congressman Wilson asked a question about the power assist 
on MRAP doors, and every MRAP variant and the doors on those 
variants has a cylinder to assist on each door now, and we 
haven't received any reports to improve the current capability. 
So as I said in my previous comments, we adjusted the power 
assist for those doors and I can report you that every MRAP--
has those power assists on the doors today.
    Mr. Abercrombie. Fine.
    In that context, before you go on, I had mentioned to Mr. 
Ahern yesterday in discussing or responding about the idea of a 
business plan, or what made business sense, and so on, I think 
the MRAP, as it has unfolded, and the way you have handled it, 
is a good example of why what constitutes good business 
practice for the military isn't necessarily the same thing--I 
was going to say, like for General Motors, but we can see how 
great they are doing--how is that going?
    It may be small comfort to the Pentagon to finally be able 
to say, when somebody criticizes you for spending money, how 
come you can't run it like a business. You would be well within 
your rights to look out there and say, ``Well, what business do 
you have in mind that we can compare it to?'' My point being is 
that you are dealing, by definition, with a business that isn't 
necessarily going to comport with what the standard model of 
corporate manufacturing, and so on.
    And I think the way you have handled the MRAP approach is a 
good example of the right way to do things. You have multiple 
vehicles done with different companies. They are all in 
competition, if you will, with one another, and they have come 
up with different approaches that are suitable for one context 
and maybe not as good in another, and you are trying to 
differentiate those.
    And they are all being manufactured and brought online for 
specific purposes, I think in very rapid fashion and with 
excellent results, whosever been overseeing the programs--and 
for multiple services.
    So I think this is a good example of where you have 
multiple requirements, fierce competition, and excellent 
oversight by having the mission clearly in mind, and that the 
Army was pretty much in control. You didn't subcontract out 
your own responsibilities, and such. At least this is my 
perception of the way this has worked.
    So just being able to do what you say here, you have got 
different kinds of vehicles, but you had a common problem you 
had to deal with in different vehicles, and you oversaw a 
solution and it got done in rapid order. Is that a fair summary 
of what has happened?
    General Thompson. Yes, sir. It is a fair summary. So just a 
couple of points: One is that it has been a joint effort----
    Mr. Abercrombie. Yes.
    General Thompson [continuing]. Joint Program Office led by 
the Navy and the Marine Corps, with significant Army 
participation, so----
    And I would say that the MRAP is a great model for how to 
use the flexibility in the acquisition system, and it is my 
full expectation, as we work together with OSD, would use the 
same flexibilities we use with the MRAP program as we would 
both develop the requirements through the joint requirements 
process, and the acquisition of the ground combat vehicle so it 
doesn't take us a decade to get the ground combat vehicle out 
there, which is a----
    Mr. Abercrombie. Okay.
    General Thompson [continuing]. Capability.
    Mr. Abercrombie. Yes, and maybe we can just use what is 
already working. There is no law against it. You don't have to 
invent this particular wheel--bad analogy, but----
    Okay. Then--excuse me, you weren't finished, though.
    General Thompson. Sir, the question from Congressman Hunter 
about the brownout issues: The UH-60 Mike Black Hawk upgrade 
that we have right now on the advanced handling system is going 
to give us a capability, once we finish the development, to do 
automatic takeoff and landing in brownout or whiteout 
conditions, and I just wanted to get that on the record right 
now, because of some of the technology that we are going to put 
in there, particularly the fly-by----
    Mr. Abercrombie. We will get that to Mr. Hunter.
    General Thompson. And we will follow up in more detail on 
that.
    Mr. Abercrombie. Okay.
    General Thompson. And the last one for clarification was a 
question asked by Congressman Wilson on the carbine. We will 
have the rights--the technical data rights to the M-4 Carbine 
beginning in July.
    We are going to have a performance-based competition for 
the Carbine. The new Carbine requirement is in staffing, as I 
indicated, that will go to the joint staffing process here very 
quickly. And we anticipate approval on the requirement by the 
end of the summer and the Request for Proposal (RFP) release in 
late summer, which is a few months later than I indicated 
earlier. And I just wanted to clarify that for the record.
    Mr. Abercrombie. Thank you. Excellent.
    Any final thoughts, General Speakes? Okay.
    Mr. Ahern, I am pleased that you were able to be at both of 
these hearings, because in a certain sense I am going to rely 
on our and our new acquaintanceship for what this subcommittee 
has as its primary jurisdiction, and that is the Army and the 
Air Force.
    And I hope that you can see from some of the questions and 
observations made by the members over the last two days that I 
have my own friction issues to deal with--not necessarily 
because different interests are rubbing up against one another 
and causing difficulty, but the politics of defense on the 
legislative side requires people who are in a position of 
responsibility to make recommendations to the subcommittee and 
the full committee to be aware of them, to be cognizant of 
them, and to be cognizant of the merits--not just the demerits, 
but the merits of the various positions.
    Some of them can seem parochial to those on the outside, 
but they are also the responsibility of individual members--
they happen to be in their districts or something, so be it. 
That just means they are that much more familiar with it, from 
my point of view.
    So my point here is that, the reason that I am asking so 
many of these questions and pushing you and the services with 
regard to how we allocate the funds within the policies 
established, is that there is competition that I have to take 
into account, whether it is the Joint Cargo Aircraft, whether 
it is the F-35, whether it is the F-22s, what is to be done or 
not done, the Strykers, the various elements of the Future 
Combat System, et cetera.
    I am now charged with the responsibility of blending these 
requirements and necessities to meet our strategic interests, 
and at the same time recognize that I have got to have a 
balance in there that is acceptable enough to get the votes, to 
make it acceptable to those who have the responsibility of that 
little plaque out in the anteroom there that says the Congress 
shall provide for the armies and navies, et cetera.
    So I am just putting that on the record, not because I 
don't think you know it, but rather to make it crystal clear 
that it is foremost in my mind, and so that both the questions 
and observations that come from me and the others are entirely 
based upon, how can we put this together in a way that will 
satisfy the Nation that we are, in fact, defending the Nation's 
interests with the maximum possible effort and focus, and 
understanding of what they are, and meeting the practical 
responsibilities of putting a defense bill together that can 
sustain itself in the appropriations process.
    So your aid and assistance over the next couple weeks in 
accomplishing that would be most gratefully received.
    Mr. Ahern. Absolutely.
    Mr. Abercrombie. And acknowledged.
    Mr. Ahern. Absolutely, sir, and I welcome the opportunity--
--
    Mr. Abercrombie. Good. Thank you all very much. Again, I 
apologize for the length of time that you had to spend waiting 
to complete this, but I assure you the efforts made here today 
will be closely attended to when we make our decisions.
    [Whereupon, at 1:19 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 21, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 21, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 21, 2009

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    General Thompson. The M4 carbine has $20.5 million budgeted 
in FY10. [See page 15.]
    General Thompson. Soldier protection is our number one 
priority. The M-ATV requirement for safety and survivability 
regarding the doors is defined by the Soldier's ability to 
ingress/egress the vehicle when the vehicle is without power. A 
complete safety assessment and human factors study was 
performed to ensure the vehicle met the ingress/egress 
requirement. The results were confirmed by independent test and 
evaluation. The tests concluded that the M-ATV base vehicle met 
the requirement without an additional power assist system for 
the doors. However, when the add-on armor used to protect 
against Explosively Formed Penetrators (EFPs) was installed, 
the EFP-armored vehicle did not meet the ingress/egress 
requirement. Consequently, the EFP armor kit provides a door 
equipped with a power assist to meet this requirement. The 
power assist door incorporates several safety mechanisms 
including sensing devices to prevent injuries to Soldiers while 
closing the door. The power assist door also contains a 
dedicated battery for operation of the system which is not 
dependent on the base vehicle but is recharged during 
operations of the vehicle. The power assist can open the doors, 
even when the vehicle is on its side, as long as the doors are 
not combat locked, blocked, or jammed. The doors can be opened 
50-60 times before requiring a battery charge. [See page 16.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. MARSHALL

    General Speakes. The Army's unfunded requirements list 
included two items that fall under the categories of test sets 
and diagnostic equipment, and test infrastructure items. The 
Army requires $47 million in Other Procurement, Army (OPA), 
under Test Measurement and Diagnostic Equipment for the life 
cycle replacement of 2,412 Maintenance Support Devices. These 
man-portable general purpose automatic testers are used to 
verify the operational status of weapon systems and to isolate 
faults within the systems. Within the category of Army Test 
Infrastructure, $31 million in OPA is required to accelerate 
new capabilities to the warfighter and reset the accelerated 
wear of test infrastructure. [See page 17.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. KISSELL

    Mr. Ahern. The Marine Corp's four ``Angel Fire'' capable C-
12s returned from the Iraqi Area of Responsibility to CONUS in 
April 2009. The platform carrying the ``wide area persistent 
surveillance'' capability was an unpressurized King Air A90; 
one of the oldest King Air versions in service today. All four 
Angel Fire platforms returned to CONUS and were dissembled in 
April 2009 based on a January 2009 Marine Corps Central Command 
message stating the capability was no longer required in 
theater. Angel Fire is 2007 vintage technology and is being 
replaced by newer capabilities integrated onto more capable 
platforms, such as the King Air 350. One such capability is the 
Army's ``Constant Hawk,'' which will have the latest wide area 
persistent surveillance technology available and will deploy to 
Afghanistan in 2QFY 2010. Beyond that the Air Force continues 
to procure and deploy Liberty Extended Range King Air 350s (C-
12s) to provide rapid ISR capability. [See page 14.]
                                ------                                


              RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER

    General Thompson. The Army concluded a functional solutions 
analysis for safe operations in degraded vision environments (DVE) and 
complex urban terrain. The functional solutions analysis report 
recommends multiple materiel and non-materiel solutions to this 
problem.
    Training tasks that capitalize on current modernized aircraft 
equipment, upgrades to existing equipment, and new materiel approaches 
to the DVE challenge are identified to resolve many gaps in DVE flight 
profiles. This report provides the analysis to establish capabilities 
requirements documents for DVE solutions.
    The Army Research and Development program has a technology effort 
under development in Program Element 0603710A, Night Vision Advanced 
Technology, to support helicopter pilots during landing and take-off 
operations while in brownout conditions. In fiscal year 2010 the effort 
is funded at $4.3 million dollars. This effort employs a number of 
multispectral sensors distributed around a UH-60/CH-47, providing 
imagery to both pilots and crew members via an optical head tracked 
display.
    These head tracked infrared sensors will allow multiple pilots and 
crew members to view imagery all around the aircraft providing multiple 
sets of eyes the ability to track aircraft position relative to the 
ground and other objects that may require avoidance and also the 
ability to see through dust. This enhances crew coordination in 
degraded visual environments (e.g., one pilot can focus on front left 
objects say a rock or tree, while the other pilots can focus on front 
right side scenery, and crew members in the rear cabin can concentrate 
on the trail wheel and objects directly underneath the aircraft, while 
all can be communicating with each other as to the relative closing 
rate of the aircraft with objects in their area). Everyone can also 
view what the others are seeing if need be.
    Sensor tests schedule: Ground and flight testing will be conducted 
before this calendar year 2009 ends. (November 2009 and December 2009). 
[See page 26.]

                                  <all>

</pre></body></html>
